HHS/OIG-Audit--"Audit of Administrative Costs - Medicare Parts A and B--Blue Cross and Blue Shield of Michigan, (A-05-94-00064)"
Department of
Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs - Medicare Parts A and B--Blue
Cross and Blue Shield of Michigan," (A-05-94-00064)
June 27, 1996
Complete Text of Report is available in PDF format
(604 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out unallowable costs of $15.6 million claimed
by Blue Cross and Blue Shield of Michigan (BCBSM) for Fiscal Years 1990 through
1993. The unallowable costs consisted of, and we recommended financial adjustments
for: $8.1 million in costs in excess of the Health Care Financing Administration's
(HCFA) notice of budget authorization; $2.4 million for unallowable strategic
planning costs that did not directly benefit the Medicare program; $2.1 million
in credits due the Medicare program from BCBSM's Medicare secondary payer activities;
$1.3 million for unallowable investments; $1.2 million for implementation and
maintenance of a claims processing system contrary to a memorandum of understanding
with HCFA; and $0.6 million for various items which were unreasonable, not in
accordance with Federal regulation, or did not benefit the Medicare program.